OFFICE OF INSPECTOR GENERAL

               Audit Report
Fiscal Year 2007 Evaluation of Information Security
         at the Railroad Retirement Board


                Report No. 07-08
               September 27, 2007




   RAILROAD RETIREMENT BOARD
                                  INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) evaluation
of information security at the Railroad Retirement Board (RRB).

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad
Retirement Act (RRA) and the Railroad Unemployment Insurance Act (RUIA).
These programs provide income protection during old age and in the event of
disability, death, temporary unemployment or sickness. The RRB paid over $9.5
billion in benefits during fiscal year (FY) 2006. Also in FY 2006, the RRB reported
over 522,000 Medicare enrollees for which 11.7 million Medicare Part B claims
totaling more than $900.5 million were paid. The RRB is headquartered in Chicago,
Illinois, and has 53 Field Offices and 3 Regional Offices across the nation.

The RRB’s information system environment consists of six major application
systems and two general support systems, each of which has been designated as a
moderate impact system in accordance with standards and guidance promulgated
by the National Institute of Standards and Technology (NIST). The major application
systems correspond to the RRB’s critical operational activities, including RRA benefit
payments, RUIA benefit payments, maintenance of railroad employee compensation
and service records, administration of Medicare entitlement, financial management,
and the RRB’s financial interchange with the Social Security Administration. The
two general support systems comprise the mainframe computer and the end-user
computing systems.

This evaluation was conducted pursuant to Title III of the E-Government Act of 2002,
the Federal Information Security Management Act of 2002 (FISMA), which requires
annual agency program reviews, Inspector General security evaluations, an annual
agency report to the Office of Management and Budget (OMB), and an annual OMB
report to Congress. FISMA also establishes minimum requirements for the
management of information security in nine areas.

     ¾   Risk Assessment
     ¾   Policies and Procedures
     ¾   Testing and Evaluation
     ¾   Training
     ¾   Security Plans
     ¾   Remedial Action Process
     ¾   Incident Handling and Reporting
     ¾   Continuity of Operations
     ¾   Inventory of Systems

Information security means protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order

                                           1
to provide confidentiality, integrity, and availability. The Bureau of Information
Services, under the direction of the Chief Information Officer is responsible for the
RRB’s information security and privacy programs. FISMA requires agencies to
report any significant deficiency in policy, procedure, or practice as a material
weakness in reporting under the Federal Managers’ Financial Integrity Act. 1

The OIG previously evaluated information security at the RRB during FYs 2000
through 2006, and reported weaknesses throughout the RRB’s information security
program. 2 The OIG also cited the agency with significant deficiencies in access
controls in the mainframe and end-user computing environments, training provided
to staff with significant security responsibilities, and delays in meeting FISMA
requirements for both risk assessments and periodic testing and evaluation. During
FY 2006, the agency completed corrective action to eliminate the previously
reported significant deficiency in training.

During FY 2007, the agency formed two new committees to help manage
information security and privacy related issues. The Information Security and
Privacy Committee is responsible for facilitating the implementation of FISMA and
the E-Government Act and for ensuring agency-wide compliance with the Acts. The
committee is also involved in privacy management compliance. The Agency Core
Response Group is responsible for conducting a risk analysis to determine whether
a loss of personal information resulting from a data breach poses identity theft
problems. The agency’s response to the data breach will be contingent upon the
nature and scope of the risk identified by the committee.


Objective, Scope and Methodology

This evaluation was performed to meet FISMA requirements for an annual OIG
evaluation of information security that includes:

      1. testing the effectiveness of information security policies, procedures, and
         practices of a representative subset of the agency’s information systems; and

      2. assessing the RRB’s compliance with FISMA requirements and related
         information security policies, procedures, standards, and guidelines.

To meet the first requirement, the OIG audited the application controls of the Daily
Activity Input System/Checkwriting Integrated Computer Operation component
application of the RRA benefit payment major application, the state wage match data
transmission controls, the federal income taxes withheld from railroad retirement
annuities, and the controls to safeguard sensitive personally identifiable information.
1
  A significant deficiency is a weakness in an agency’s overall information systems security program,
management control structure, or within one or more information systems that significantly restricts
the capability of the agency to carry out its mission or compromises the security of its information,
information systems, personnel, or other resources, operations, or assets.
2
    OIG audit reports are maintained on the RRB website at http://www.rrb.gov/oig/library.asp.

                                                    2
The OIG also evaluated the RRB’s privacy program, and began an evaluation of the
information security for the financial interchange major application. These reviews
were conducted in FY 2007.

To meet the second requirement, we considered the results of prior audits and
evaluations of information security during FYs 2000 through 2006, including the
status of related recommendations for corrective action. We also obtained and
reviewed documentation supporting the RRB’s performance in meeting FISMA
requirements and interviewed responsible agency management and staff. Lastly,
we examined documentation for one of the RRB’s contractor operations to
determine whether controls were designed to meet FISMA requirements. 3 Our tests
of contractor operations did not include an assessment of whether the controls were
operating or effective.

The primary criteria for this evaluation included:

    •   FISMA requirements;
    •   OMB Circular A-130, “Management of Federal Information Resources”; and
    •   NIST standards and guidance.

Our work was performed in accordance with generally accepted government
auditing standards as applicable to the objective. Fieldwork was conducted at RRB
headquarters in Chicago, Illinois from May through September 2007.


Scope Limitation Caused by Appropriation Restrictions

FISMA requires an annual OIG evaluation of the agency’s information security
program and practices which includes all agency general support and major
application systems, including the Medicare program. However, we cannot fulfill our
FISMA oversight mandates because we are prevented by law from reviewing the
agency’s Medicare program which includes over 522,000 enrollees with claims
totaling more than $900.5 million. This paradox results from long-standing
restrictions on OIG appropriations dating back to 1997.

In FY 1999, P.L. 105-277 made the restriction on OIG appropriations permanent
when the section entitled “Limitation on the Office of Inspector General” stated:

        “… none of the funds made available under this heading in this Act,
        or subsequent Departments of Labor, Health and Human Services,
        and Education, and Related Agencies Appropriations Acts, may be
        used for any audit, investigation, or review of the Medicare Program.”
        [Emphasis added.]



3
  FISMA establishes minimum security requirements for all agency operations and assets. These
requirements are listed in NIST Special Publication (SP) 800-53.

                                               3
As of the end of FY 2007, the OIG has included all of the RRB’s general support
systems and major applications in their FISMA evaluations, except the
administration of Medicare entitlements as proscribed by appropriation law. Since
the OIG is prevented from applying appropriation funds for any audit, investigation,
or review of the RRB’s Medicare program, a scope limitation results from the OIG’s
inability to perform its FISMA oversight mandates.

Additionally, the OIG has previously cited the RRB with a significant deficiency in
periodic testing and evaluations because the RRB has failed to implement a
consistent, FISMA compliant process which includes evaluating the effectiveness of
information security policies, procedures, and practices. We believe this deficiency
extends to the RRB’s Medicare program.




                                          4
                            RESULTS OF EVALUATION

The RRB has not yet achieved an effective FISMA compliant security program. The
agency is addressing its significant deficiencies in the previously reported areas of
access controls, risk assessments, and periodic testing and evaluation; however,
much work remains to be completed. Additionally, other observed weaknesses in
the agency’s implementation of requirements for risk based policies and procedures,
a NIST compliant certification and accreditation program, the identification of
contractors, an effective remedial action process, the continuity of operations, and
the inventory of systems continue to exist.

The details of our assessment of agency progress in complying with FISMA
requirements and a summary of the weaknesses identified during our FY 2007
evaluation of information security, including recommendations for corrective action,
follow. Agency management has agreed to take the recommended corrective
actions for all recommendations except Recommendation 6 for which we have made
an alternative recommendation. The full text of management’s responses is
included in this report as Appendices I and II.


Access Controls

The design and implementation of access controls in the RRB’s general support and
application systems is not adequate to meet minimum standards of least privilege
established by OMB Circular A-130, Appendix III. Least privilege is the practice of
restricting a user’s access or type of access to the minimum necessary to perform
his or her job.

In its FY 2001 evaluation of information security (and confirmed by technical
specialists under contract to the OIG), the OIG cited the agency with a significant
deficiency in this area and made several recommendations. Weaknesses included:

    •   inadequate management of user accounts and passwords,
    •   the inability to support detailed security evaluations of LAN user accounts
        and privileges using existing facilities, and
    •   a process of reviewing and re-authorizing access to some mainframe
        component applications that was not fully effective.

During FYs 2004 and 2005 the OIG, and technical specialists under contract to the
OIG, performed detailed tests of user privileges in the mainframe and end-user
computing general support systems. That testing also found that employees had
been granted privileges in excess of those required for their job functions. Additional
recommendations in the area of access control were made, bringing the total




                                           5
number of recommendations in this area to 31. As of August 1, 2007, the agency
has fully implemented 9 of the recommendations, resulting in 22 that require further
corrective action. 4

Our FY 2007 review of security configuration policies governing all domain servers
and desktops showed that some settings still include default privileges to global
groups that allow excessive access. We also noted that an individual whose
account is currently inactive is also defined within the group policy object. These
settings violate the principle of least privilege and good security management
practices. Excessive rights and privileges weaken the overall information security
program. Previously, we reported that the RRB does not have an agency-wide
security configuration policy, and recommended that one be developed. 5 The
agency has not yet addressed this recommendation.

Recommendation

      1. We recommend that the Bureau of Information Services review the privileges
         defined in the group policy objects, and remove global groups that allow
         excessive access and individually defined inactive accounts.

Management’s Response

The Bureau of Information Services concurs with the recommendation and will
prepare a plan to address the group policy, remove global groups, and establish
organizational unit groups.


Certification and Accreditation

The OIG cited the RRB with a deficiency in implementing a NIST compliant
certification and accreditation program in FY 2003. We found that existing agency
procedures for authorizing the processing of information systems were not adequate
to meet requirements because they did not place responsibility at a high enough
level of agency management and were not supported by adequate risk assessment
and testing processes.


4
    OIG Report No. 02-04, Recommendation 13, 20, and 21.
    Blackbird Technologies, Inc., report dated 07/20/01, Recommendation 5.
    Blackbird Technologies, Inc., report dated 08/17/01, Recommendations 5a, 5b, and 5c.
    OIG Report No. 04-07, Recommendations 1, and 3.
    OIG Report No. 04-08, Recommendation 1.
    OIG Report No. 04-09, Recommendations 1, and 3.
    OIG Report No. 05-08, Recommendations 10, and 11.
    DSD LAN Report dated 06/07/05, Recommendations 6, 7, 8, and 9.
    DSD SCAN Report dated 06/07/05, Recommendations 1 and 6.
    DSD WEB Report dated 06/07/05, Recommendations 13 and 16.
5
    OIG Report No. 05-11, Recommendation 1.


                                                   6
OMB Circular A-130, Appendix III requires that agency management authorize
systems for processing based on the formal technical evaluation of the
management, operational, and technical controls. 6 In May 2004, NIST released
Special Publication (SP) 800-37, “Guide for the Security Certification and
Accreditation of Federal Information Systems” which provides guidelines for security
certification and accreditation of information systems supporting the executive
agencies of the Federal government. NIST SP 800-37 provides that security
accreditation should be given by a senior agency official who has authority to
oversee the budget and business operations of the information system. 7

Agency management rejected the OIG’s recommendation to develop a formal
certification and accreditation process when it was first offered in FY 2003, but
agreed to implement the recommendation when it was again offered in FY 2004. 8
Elsewhere in this report we discuss the significant deficiencies in the RRB’s risk
assessment and testing and evaluation processes which are critical elements of
certification and accreditation.

During FY 2007, the agency contracted with technical specialists to assist in the
certification and accreditation of the RRB’s end-user computing general support
system. Certification and accreditation of the RRB’s mainframe computing general
support system and each of the six major applications are expected to begin
following the completion of the end-user computing accreditation. The contract
includes the preparation of risk assessments, updated security plans, security
testing and evaluations, and a Plan of Action and Milestones (POAM) for each
system reviewed.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Risk Assessment

The RRB has not implemented an effective risk assessment process including
documentation of agency determinations regarding risk. A risk assessment process
is a critical component of a NIST compliant certification and accreditation process.
6
 The terms certification and accreditation are synonymous with the formal technical evaluation of the
controls and the authorization of the information system for processing, respectively.
7
  NIST SP 800-37 functionally replaced Federal Information Processing Standard 102, “Guideline for
Computer Security Certification and Accreditation,” dated September 1983. That standard stated that
“accrediting officials must possess authority to allocate resources to achieve acceptable security and
to remedy security deficiencies.” Therefore, NIST SP 800-37 continues to prescribe information
system accreditation at a level of management consistent with long-standing requirements.
8
    OIG Report No. 03-10, Recommendation 6.
    OIG Report No. 04-11, Recommendation 9.


                                                  7
Organizations use risk assessments to determine the potential threats to information
and information systems and to ensure that the greatest risks have been identified
and addressed.

FISMA requires federal agencies to periodically assess the risk and magnitude of
harm that could result from unauthorized access, use, disclosure, disruption,
modification, or destruction of information or information systems.

The OIG first reported in FY 2002 that the RRB’s risk assessment process was
made in connection with management control reviews performed for the Federal
Managers’ Financial Integrity Act of 1982. At that time, we reported that the reviews
may or may not include security-related control objectives and techniques.

In our FY 2005 FISMA report, the OIG cited the agency with a significant deficiency
in this area because the agency had made little progress in implementing a formal
risk assessment process in accordance with NIST guidance. We also
recommended that the agency complete formal risk assessments of the major
application and general support systems in accordance with NIST guidance. 9 While
the agency drafted a risk assessment methodology in FY 2006, that document has
not yet been approved, adopted, or implemented.

During FY 2007, the agency contracted with technical specialists to assist in the
certification and accreditation of the RRB’s end-user computing general support
system, including the completion of a formally documented, NIST compliant, risk
assessment. Similar actions for the RRB’s mainframe computing general support
system and each of the six major applications are expected to begin following the
completion of the contract for end-user computing.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Testing and Evaluation

The RRB has not yet implemented a consistent, FISMA compliant, testing and
evaluation process.

FISMA requires periodic testing and evaluation of the effectiveness of information
security policies, procedures, and practices performed with a frequency depending
on risk, but no less than annually. The periodic tests and evaluation must include
testing of management, operational, and technical controls for every system
identified in the agency’s inventory of systems. NIST SP 800-53A, “Guide for
Assessing the Security Controls in Federal Information Systems,” provides
procedures for assessing the effectiveness of security controls employed in Federal
9
    OIG Report No. 05-08, Recommendation 4.

                                              8
information systems and directly supports the security certification and accreditation
process.

The OIG previously reported that RRB tests did not meet FISMA requirements
because they did not include all major application systems and were not
comprehensive with respect to all three categories of controls: management,
operational, and technical. Additionally, the agency had not consistently performed
tests of contractor operations. We recommended that management act to ensure
periodic independent evaluations of system security for major applications, as well
as the quality of security self-assessments. 10

In our FY 2005 FISMA report, the OIG cited the agency with a significant deficiency
in this area because the agency had made little progress in implementing a
compliant periodic testing and evaluation process.

In FY 2006, the Bureau of Information Services incorporated a subset of the NIST
SP 800-53A procedures as a test plan for common controls which are not specific to
any one major application or general support system, and began testing. The
common controls address the development of policies and procedures, continuity
planning, incident response, physical environment security, and personnel security.
In FY 2007, they completed their test. However, they did not incorporate the RRB’s
regional and field offices in the test. Since each field office location has its own
server containing agency information, the results of the common control tests
pertaining to physical security are impacted by field office omission.

During FY 2007, the agency contracted with technical specialists to assist in the
certification and accreditation of the RRB’s end-user computing general support
system, including the completion of security tests and evaluations. Similar actions
for the RRB’s mainframe computing general support system and each of the six
major applications are expected to begin following the completion of the contract for
end-user computing. However, that contract only requires contractor employees “to
perform their necessary services at the RRB headquarters facility, located in
`Chicago, Illinois.” Therefore, it does not appear that those test procedures will
include any physical environment tests of the RRB’s regional and field offices.

The lack of testing outside of RRB headquarters may result in weaknesses that will
go undetected, increasing the RRB’s risk that information and information systems
are not protected from unauthorized access, use, disclosure, disruption, modification
or destruction. As a result, the RRB cannot ensure the confidentiality, integrity, or
availability of agency information.




10
     OIG Report No. 02-04, Recommendation 3.
     OIG Report No. 03-02, Recommendations 1, 2, 3, and 4.

                                                  9
Recommendation

       2. We recommend that the Bureau of Information Services extend their test and
          evaluation plans to include agency information and information systems
          located outside of RRB headquarters, including regional and field offices.

Management’s Response

The Bureau of Information Services concurs with the recommendation and will
develop guidance for the regional, field, and headquarters office managers on how
to perform security assessments to validate whether adequate physical,
environmental and information security controls are in place.


Policies and Procedures

The RRB’s policies and procedures continue to need improvement to ensure that
they are comprehensive and effective in all areas of the agency’s information
security and privacy programs.

FISMA requires that agencies include risk-based policies and procedures that cost-
effectively reduce risks to an acceptable level and ensure that information security
(which includes the confidentiality, integrity, and availability of information) is
addressed throughout the life cycle of each information system.

During FY 2007, the OIG conducted several reviews which disclosed the need for
additional policies, procedures, and practices to address information security and
privacy weaknesses. 11

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Training

The RRB has met the FISMA requirement for information security training for
employees, but needs improvement in identifying contractors. Our review of security

11
     OIG Report No. 07-02, Recommendations 1, 2, 3, 4, and 5.
     OIG Memorandum No. 07-02m, Recommendation 1.
     OIG Report No. 07-04, Recommendations 1, 2, 3, 4, 5, and 6.
     OIG Report No. 07-06, Recommendations 1, 2, 3, 4, 5, 6, 7, 8, 9,10, 11, 12, 13, 14, 15, 16, and 17.
     OIG Report No. 07-07, Recommendations 2, 3, and 4.

  Additionally, our audit of controls to safeguard sensitive personally identifiable information with 22
recommendations is pending management’s response to the draft report.


                                                    10
awareness training provided to employees and contractors showed that the
methodology used by the Bureau of Information Services to identify contractors for
security awareness training is ineffective. As a result of our discussions with agency
personnel concerning the methods used by them to identify contractors for training,
the number of contractors notated on the agency’s training control log doubled
during the month of August 2007. Most of these contractors had obtained their
system access prior to January 2007. Previously, in our review of the agency’s
privacy program, we reported a similar weakness regarding unidentified contractors
with access to personally identifiable information, and made recommendations to
improve that program. 12

FISMA requires agencies to provide security awareness training to employees,
contractors, and other users of information systems. In addition to security
awareness training, agencies are required to provide appropriate training on
information security to personnel with significant security responsibilities. The RRB
has developed a security awareness training pamphlet, Form RRB G-15, which
provides an overview of the RRB’s policies and procedures for information security.
Personnel are required to sign Form G-15a to acknowledge that they have read and
understand this pamphlet. Annual refresher training may, or may not, consist of
reviewing this pamphlet as other areas of concentration may be desired by agency
management.

The procedure used by the Bureau of Information Services to identify contractors for
training only considers those contractors for whom email addresses are known.
Additionally, agency personnel did not keep records of any attempts to identify
contractors for whom email addresses were unknown. Good sources of contractor
information can be found in access control lists, contract files and discussions with
the Contracting Officer’s Technical Representatives, and through the compiled
results of prior reviews.

Security awareness training informs users of their duties and responsibilities in
complying with agency policies and procedures to reduce risks associated with
information security. Untrained contractors pose additional risks because their
corporate culture may not be aligned with agency policy, procedures, and rules of
behavior.

Recommendations

      3. We recommend that the Office of Administration revise the Contracting
         Officer’s Technical Representative instructional letter to include a requirement
         for all new contractor employees to receive the security awareness training
         pamphlet, Form RRB G-15, and to obtain the written acknowledgement from
         them via Form G-15a.

      4. We recommend that the Bureau of Information Services compile and maintain
         comprehensive listings of all contractors for future annual refresher training by
12
     OIG Report No. 07-06, Recommendations 11, 12, and 14.

                                               11
          implementing a procedure to use all available sources of identification,
          including access control lists and contract files.

Management’s Responses

The Office of Administration concurs with the recommendation and will revise the
Contracting Officer’s Technical Representative instructional letter.

The Bureau of Information Services concurs with the recommendation and will
develop procedures to maintain a comprehensive listing of all contractors in time for
the next annual cycle of awareness training.


Security Plans

FISMA requires that agencies maintain subordinate plans for providing adequate
information security for networks, facilities, and systems or groups of information
systems. The RRB has developed and maintains such plans.

In FY 2007, the agency contracted with technical specialists to assist in the
certification and accreditation of the RRB’s end-user computing general support
system, including the completion of an updated security plan. Similar actions for the
RRB’s mainframe computing general support system and each of the six major
applications are expected to begin following the completion of the end-user
computing contract.


Remedial Action Process

The RRB’s remedial action process continues to be ineffective in identifying and
prioritizing all weaknesses in the agency’s information security and privacy
programs.

FISMA requires Federal agencies to maintain a process for planning, implementing,
evaluating, and documenting remedial action to address any deficiencies in the
information security policies, procedures, and practices of the agency. OMB
requires agencies to develop a formal POAM to identify vulnerabilities in information
security and privacy, and to track the progress of corrective action. Each year, OMB
requires the OIG to assess the agency’s POAM as part of the FISMA reporting
process.

The OIG first criticized the RRB’s POAM in FY 2003 as ineffective in articulating
weaknesses and planning corrective actions. We recommended that the RRB
review and revise the POAM to include items that were missing. The RRB rejected
the recommendation stating the POAM was for internal agency purposes and did not
require revision to track remedial actions. 13
13
     OIG Report No. 03-11, Recommendation 1.

                                               12
In FY 2005, we again reported that the existing POAM was not comprehensive with
respect to identifying weaknesses. We also reported that it was not driven by
internal risk assessments and control evaluations and did not demonstrate
prioritization of agency plans and efforts to correct the weaknesses found. We
recommended that the RRB review and revise its remedial action process to ensure
that all security weaknesses are included and to ensure that the POAM
demonstrated the prioritization of agency remediation efforts. 14 The RRB responded
that they found the POAM “to be a cumbersome document to maintain and update”
but agreed to modify it “to reflect outstanding security recommendations … with
sufficient summarized detail to permit oversight and tracking of agency remediation
progress.”

In FY 2007, we reported that the agency was not preparing action plans for their
privacy-related weaknesses, and as a result those weaknesses were not being
incorporated into the existing POAM. We recommended that the agency develop
appropriate action plans and update the POAM for all privacy-related weaknesses. 15
The RRB has only agreed to include significant privacy-related weaknesses.

Our current assessment of the existing POAM shows that the agency continues to
omit many known weaknesses identified either through OIG reviews or through
agency reviews. As a result, agency efforts to date have been insufficient in
correcting POAM deficiencies.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Incident Handling and Reporting

The RRB’s incident handling and reporting program is generally effective in ensuring
the confidentiality, integrity, and availability of the agency’s information and
information technology.

FISMA mandates that Federal agencies develop, document, and implement
procedures for detecting, reporting, and responding to security incidents as part of
its agency-wide information security program.

In FY 2006, the OIG performed a detailed review of the RRB’s incident handling and
reporting program and found that agency’s overall efforts were sufficient to meet the
requirements established by FISMA. We did, however, recommend some areas
where program management could be improved. 16

14
   OIG Report No. 05-11, Recommendation 3.
15
   OIG Report No. 07-06, Recommendation 15.
16
   OIG Report No. 06-09, Recommendations 1, 2, 3, 4, 7, 8, 9, and 10.

                                                13
Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Continuity of Operations

The agency’s disaster recovery plan provides assurance that most of the agency’s
major information technology functions would be operational in the event of a
disaster, but the plan does not provide reasonable assurance that the agency will be
able to recover from a disaster and perform its critical business functions in a timely
manner. Additionally, procedures do not ensure the protection of sensitive
information.

FISMA requires Federal agencies to implement plans and procedures to ensure
continuity of operations for information systems that support the operations and
assets of the agency.

Historically, the RRB has provided for semi-annual off-site recovery testing of the
two general support systems and the mainframe databases of its major application
systems. The RRB generally also tests some of the major application batch
processes, and LAN connectivity. However, the RRB has never tested the
Continuity of Operations Plan which ensures business continuity. In FY 2006, the
OIG recommended such testing, as well as other continuity of operations procedures
and practices. 17 Additionally, we had previously recommended that the agency
update its overall disaster recovery plan, which is still pending. 18

In FY 2007, the RRB performed a desk examination of the Continuity of Operations
Plan. This consisted mainly of having team members read a training document,
update the team rosters, and verify that the plan procedures are correct.

At the time of our FISMA evaluation, the RRB had also performed one of the two
scheduled off-site recovery tests. Our review of the test’s results show that the RRB
did not adequately dispose of all data packs containing sensitive information. We
were told that the time allotted for off-site testing had lapsed, so the Bureau of
Information Services personnel left the test site without clearing the data packs.
Instead, they left the removal of sensitive information to the off-site disaster recovery
vendor. As a result, the RRB lost control of their sensitive information and cannot
determine whether the data was inappropriately accessed or compromised by an off-
site vendor employee.

We also reviewed the results of all off-site test results since FY 2001, and noted that
one of the RRB’s major applications (Financial Interchange) has never been tested

17
     OIG Report No. 06-08, Recommendations 2, 4, 5, and 6.
18
     OIG Report No. 02-04, Recommendation 6.

                                                14
off-site, and another RRB major application (Financial Management) has not been
tested off-site since FY 2002. As a result, the RRB cannot ensure that the
procedures for recovering these two major applications are operable or effective.

Recommendations

We recommend that the Bureau of Information Services:

   5. Schedule enough time following off-site testing to ensure all data packs
      containing sensitive information are cleared before leaving the test site. In
      the unfortunate chance that test time may lapse, a responsible Bureau
      employee should stay to observe the clearing of the disk packs to ensure no
      compromise of sensitive information occurs.

   6. Schedule the major application systems for off-site testing to ensure that all
      major applications are tested on a rotational basis in a reasonable amount of
      time.

Management’s Responses

The Bureau of Information Services concurs with Recommendation 5 and will set
aside a specific amount of time to scrub the data from the disk packs at the next
disaster recovery test. They have also obtained permission to stay past the
contracted time, if necessary, to accomplish this task. Additionally, the Bureau of
Information Services will pursue a more permanent solution and update their
procedures accordingly.

For Recommendation 6, the Bureau of Information Services agrees, in theory, that it
is appropriate for all major application systems to be involved in recovery off-site
testing, but that they cannot force system owner participation in such exercises. The
Bureau of Information Services has agreed, however, to develop a procedure to
document solicitations to participate in off-site testing, and document system owner
responses.

OIG’s Comments on Management’s Response

The Bureau of Information Services has indicated that they cannot agree to
Recommendation 6 because they “cannot force participation in such exercises by
systems owners.” Disaster recovery testing is a critical part of any information
security program. Accordingly, we believe that the Chief Information Officer should
seek the required authority from the agency’s three-member Board. If such authority
is not forthcoming, we offer the alternative recommendation that the Chief
Information Officer develop a procedure to advise the agency’s Executive
Committee and/or three-member Board of the history and status of disaster recovery
testing for the various major application systems.

A continued inability to obtain a change of behavior among system owners will be
considered a significant deficiency in future FISMA evaluations. The
                                          15
recommendation will remain in the OIG’s audit follow-up system until the Chief
Information Officer has pursued this matter as described above.


Inventory of Systems

The agency has not yet completed compilation of a reliable inventory of systems. In
FY 2005, we reported that the RRB did not have a reliable inventory that identified
component applications operating in the end-user computing general support
system, the related server locations, or the identification of security administrators.
Accordingly, we made recommendations to address these issues; implementation of
which is currently pending. 19

FISMA requires that each agency develop, maintain, and annually update their
inventory of major information systems operated by, or under the control of, the
agency. This inventory is to include an identification of the interfaces between each
system and all other systems or networks, including those not operated by, or under
the control of, the agency.

In connection with our review of the agency’s security configurations, we noted the
RRB maintains a separate, special purpose, inventory of servers located in RRB
headquarters. This inventory includes data that is not present in the agency’s official
fixed asset inventory system, including operating system, physical location within the
data center, server function, and server status such as “to be de-commissioned” or
“not used”. A comparison of the two inventories and a physical review of individual
servers revealed several discrepancies in server serial identification numbers, and
eight servers that were missing from the agency’s official fixed asset inventory
system. Additionally, our review of physical servers revealed additional errors in the
special purpose inventory, including incorrect operating system and server status.

Complete, accurate, and reliable inventories of information systems, including
applications and hardware, strengthen the information security program by
facilitating best practices over physical security controls.

Recommendations

We recommend that the Bureau of Information Services:

      7. Perform a physical inventory of information technology hardware, and update
         the agency’s official fixed asset inventory system.

      8. Research the possibility of using the agency’s official fixed asset inventory
         system to track the additional data the Bureau requires, and considers
         migrating to that inventory system if those requirements can be met.



19
     OIG Report No. 05-08, Recommendations 1, 2, and 3.

                                                16
Management’s Responses

The Bureau of Information Services concurs with Recommendations 7 and 8 and will
perform a physical inventory for headquarters equipment by September 30, 2007,
and for field office equipment after the deployment of newly purchased equipment.
They will also create procedures for improving control over data collection and entry
into the agency’s fixed asset system. Additionally, the Bureau of Information
Services will use the agency’s official fixed asset inventory system to track the
additional data they require.




                                         17
